&

No.

IN THE

Supre
u*

SUPREME COURT OF THE UNITED STATES

0fc '■Jaa
•SfiP'CEOF

Kannha Bounchanh,
Petitioner
v.
Washington State Health Care Authority(HCA), et al,
Respondent(s).

On petition for Writ of Certiorari to the United States
Court of the Appeals for the Ninth Circuit

PETITION FOR WRIT OF CERTIORARI

Kannha Bounchanh
117 N. Tacoma Avenue, Apt.#803
Tacoma, WA 98403
(253) 272-0905
Email: Kannhabounchanh@hotmail.com
PETITIONER, PROSE LITIGANT

/

QUESTIONS PRESENTED FOR REVIEW
1.

Whether panel ofjudges at the Ninth Circuit court have

violated my Due Process and Equal Justice process and the Equal
Protection Clause under the Fourteenth Amendment of the U.S.
Constitution and the ADA, ADAA2008, Title VII of Civil Rights
Act of 1964.
2.

Whether they have violated my due process and equal

justice process under the Fourteenth Amend, of the U.S. Constitution
when they ignored all evidence that I submitted to the court.
3.

Whether they violated my due process and equal justice

under the Fourteenth Amendment of the U.S. Constitution when they
used their abuse of power to discriminate against me after the
court has already accepted, filed and granted my pleading motions
and pleading motions for reconsideration in Docket numbers (Dkt#49, 51,
52, 53, 54, 55, 56, and 57). Attached copy of case summary of case no.
19-36059 from December 2019 to December 12, 2020 in Appendix A.
4.

Whether they intentionally ignored the fact that the U.S. District

court not only did not give me my due process and equal justice under
the rules of law(5th&7th Amendment of the U.S. Constitution, LCR
38, LCR 1(d), and hided some submitted evidence from my case.
-l-

LIST OF PARTIES INVOLVED
The parties involved are: Kannha Bounchanh v. Washington State Health
Care Authority(HCA), DSHS, WSHRC, AGO, EEOC, AFSCME UNION,
et al. Names of their employees, appellees, respondents are: Pamela
Anderson, Stephen (Steve) Weeks, Leigh J. Swanson, Megan Atkinson,
Sue Birch, Robert Bouffard, Jody Costello, Steve Dotson, George Taylor,
Jean Bui, Kerri Kallay, Scott Palafox, Dylan Oxford, Michael
Ottor-Johnson, Dorothy Teeter, Sharon Pecheos, Kevin Quickly, Shane
Riddle, Nicole Rivera, Nancy Sienko, Andrew Steers, Kendrick, Stacie
Leanos, Perry Gordon, Kurt Spiegel, Jason Watson, Patricia Lashway,
Eileen A. Sherlock, Kendrick Stewart, Cheryl Strange, Cheryl Strobert,
Sharon Ortiz, Grant Stromsdorfer, Andrew Steers, Myron Toyama, Toni
Haley, Idolina Reta, Jeremy Page, Gregory(Greg) Devereaux, Perry
Gordon, Stacie Leanos, Jason Watson in case no. 19-36059 and 19-35801
with the United States Court of Appeals for the Ninth Circuit and in the
case no. 3:19-V-05171 TLF(the honorable judge Theresa L. Fricke) and
3:19-v-05171RBL (the honorable judge Ronald B. Leighton) with the
United States District Court of Western Washington, Tacoma, WA.

-li-

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

1

LIST OF PARTIES INVOLVED,

11

TABLE OF CONTENTS

111

TABLE OF CITED AUTHORITIES
OPINION DECISION BELOW.

iii,iv
1
1 to 7

JURISDICTION,
CONSTITUTIONAL PROVISIONS AND LEGAL

7 to 12

PRINCIPLES INVOLVED
STATEMENT OF CASE AND FACTUAL
BACKGROUND

12 to 17

REASONS FOR GRANTING THE WRIT

17 to 20
20

CONCLUSION

INDEX TO APPENDICES A, 9™ CIRCUIT ORDERS. A TO 129A
INDEX TO APPENDICES B, U.S.DISTRICT ORDERS. B TO 39B
TABLE OF CITED AUTHORITIES
Cases
Bostock v. Clayton County, No. 17-1618,
June 15, 2020, Supreme Court's (6 to 3 ruling) decision
Donald Zard v. Altitude Express, (No. 17-1623)
Aimee Stephen v. R.G. and G.R. Harris Funeral
-in-

Homes (No. 18-107). Cleveland Bd. of Ed. v. LaFleur(1974)
Meritor Savings Bank v. Vinson(1986)
United States v. Virginia (1996)
Statutes
Sup. Ct. R. 14.1(g)(i)

5,6,7,8

42 U. S. C. §2000e-2(a)(l)

passim

42 U. S. C. §2000e—4

.passim

28 U. S. C. §2403(a)

1 to 17

28 U. S. C. §2403(b)

1 to 17

28 U. S. C. §451

1 to 17
Other Authority

U.S. Const, amend. XIV

passim

EEOC's Charge for Discrimination. 2018, 2015

passim

EEOC's Notice of Rights-To-Sue

passim

December 12, 2018 and March 1,2019
passim

U.S. Const, amend V,VII

-IV-

OPINIONS DECISION BELOW
[x] For cases from federal courts: Kannha Bounchanh y. Washington
State Health Care Authority (HCA), et al. The opinion of the
United States court of appeals appears at Appendix A to the petition and
is [ ] reported at; or, [ ] has been designated for publication but is not
yet reported; or, [x] is unpublished. The opinion of the United
States district court: Kannha Bounchanh v. Washington State Health
Care Authority(HCA), et al, case: 19-cv-05171-TLF and case: 19-cv050171-RBL appears at Appendix A to the petition and is [] reported
at U.S. District Court; or, [ ] has been designated for publication but is
not yet reported; or, [x] is unpublished. The Ninth Circuit judges(Canby
and Gould) granted amended cross-appeal for above cases and the $505
docket filing fee waiver under Forma Pauperis for my above appeals
on March 4, 2020(Docket#22), see attached case summary for 19-36059
in Appendix A.
,)

JURISDICTION
[x] For cases from federal courts: Kannha Bounchanh v. Washington
State Health Care Authority (HCA), DSHS, WSHRC, AGO, EEOC,
AFSCME UNIO, et al. The dates on which the United States Court
of Appeals decided my case were on December 1, 2020 by the CA09
Operations Manager, Stephanie and she has confirmed this via her email
correspondence, November 3, 2020 and August 7, 2020 by the

1
-1-

honorable judges Schroeder, Hawkins and Lee; and June 11, 2020 and
March 4, 2020 by the honorable judges Canby and Gould in case:
19-36059. A copy of each decision appears at Appendix A for Docket
number: 61, 55, 47, and 22. [x] My reply to the court's order for the
court's order on August 7, 2020 and motion for a reconsideration was
timely filed and the court has accepted and filed for me. In addition,
on November 9,2020 I also filed my motion for rehearing en banc
hearing by a panel of 11 judges and it was timely filed in my case. The
court has accepted and filed dateentry November 9,2020 in docket
number 62. However, since then the court has changed its mind on
December 1,2020 by Stephanie, CA09Operations Manager. On
the other hand, the letter or notice dateentry November 12, 2020 by
Ms. Rebecca Lopez, Deputy Clerk, Ninth Circuit Rule 27-7 (see
attached Appendix A) states “The judgement of this Court, entered August
07, 2020, takes effect this date. This constitutes the formal mandate of
this Court issued pursuant to Rule 41(1) of the Federal Rules of
Appellate Procedure." The question is why did Lopez filed this
mandate and it is in conflict with the court's order on November 3,
2020 and it is veiy confusing to me. I looked up the rule 41 (a) in
the Cornell's Law Library website and states "Because Rule 41(a)
"does not allow a court to dismiss some, but not all, of the defendants
in a single case," the motion for voluntary dismissal was

-2-

improper." Are their above orders to deny my case without due process
and equal justice process for the Title VII of the Civil Rights Act of
1964, ADA, ADAA2008 and 14th Amendment of the U.S. Constitution
legal? The judges could not use their abuse of power or discretionary
decisions without based on the rules of law.
[x] A timely petition for rehearing was denied by the United States Court
of Appeals on the following date December 1, 2020 and November 3,
2020, and a copy of the order denying hearing and rehearing appears at
Appendix A, page Appendices A to 20A. The jurisdiction of this Court
is invoked under 28 U. S. C. § 1254(1).
[x] For cases from U.S. District courts: Kannha Bounchanh v. Washington
State Health Care Authority(HCA), DSHS, WSHRC, AGO, EEOC,
AFSCME UNION, et al, Defendants-Appellees. The dates on which
the U.S. District Court decided my case were November 15, 2019,
November 22, 2019, December 12, 2019. A copy of each decision
decision appears at Appendix B, page Appendices B to 10B. I have
enclosed some supplemental evidence in support of Appendix A and
Appendix B. The jurisdiction of this Court is invoked under 28 U. S. C.
§ 1257(a). The justice Schroeder, Hawkins and Lee did not allow my
due process and equal justice process under Title VII of the Civil
Rights Act of 1964. They should not ignore a decision by the
U.S. Supreme Court's judges (6 to 3 ruling) on June 15, 2020 in

-3-

favor the petitioners in the case of Bostock v. Clayton County
(No. 17-1618). Argued October 8, 2019—Decided
June 15, 2020). I've mentioned this supreme court's decision in
many of my pleading motions and motions for reconsideration(See
evidence in electronic case file and a copy of Case Summary in
case no. 19-36059). The justice Schroeder, Hawkins, Lee, Canby
and Gould of the Ninth Circuit court's decisions also conflict with
other above appellate court's decisions (7th Circuit v. 2nd Circuit),
and the U.S. Supreme Court's justice judges had agreed to hear these
cases and settled in ruling favor of the petitioners based on the rules
of law. I believe that the U.S. Supreme Court justice judges made
an ethical decision based on the rules of law for the Bostock v.
Clayton County, Donald Zard v. Altitude Express(No. 17-1623) and
Aimee Stephen v. R.G. and G.R. Harris Funeral
Homes(No. 18-107). These employees were fired because
they're homosexual or transgender. Each employee sued, alleging
sex discrimination under Title VII of the Civil Rights Act of 1964 and
together, they sued and won their claims. For my already
granted Amended Cross-Appeal for my case on March 4, 2020, the
Ninth circuit's judges have failed to allow my due process and equal
justice under the rules of law and they have failed to protect me under the
Title VII of the Civil Rights Act of 1964 and the Fourteenth Amendment

-4-

of the Constitution. For these above legal reasons, I request that this court
issue its writ of certiorari review the judgments of the United States Court
of Appeals for the Ninth Circuit's judgements entered in this case on
December 12, 2020, December 1, 2020, November 3, 2020, August 7,
2020, June 11, 2020, and March 4, 2020 and the court opinion denying
expedite hearing request and then rehearing en banc hearing request
entered on December 1, 2020 by Stephanie, CA09Operations Manager.
This court and panel of judges have violated my human right, due
process and equal justice under the Title VII under the Civil Rights
Act of 1964, ADA, ADAA2008 and the Fourteenth Amendment
of the United States Constitution. They have discriminated against
me because of my race, national origin, sexual orientation and
disability. They denied my amended cross-appeal and dismissed
all appellees or respondents without allowing me my due process
and equal justice process and I am hurt by their discriminated
)

decision. And. I am being protected by the above federal law.
And. the above cases from this Court do support my position
or claim because I have met the EEOC reasonable cause and the
EEOC employment law under Title VII of the Civil Rights Act
of 1964, ADA, ADAA2008.
In my completed job application for MAPS3 position(program
manager) in 2013 and my 31 job applications in 2018, I've declared that
I am a disabled worker or a person with disability conditions for the

-5-

Title VII of the Civil Rights Act of 1964 and these evidence are in the
electronic case files with the Ninth Circuit and U.S. District courts.
And, the judges ignored and failed to address all of above
legal matter and jurisdiction under the Title VII of the Civil Rights Act
of 1964, ADA, ADAA2008 for my claim and decided to discriminate
against me. By their wrongful action, they have violated my fair Due
Process and Equal Justice process under the Title VII of the Civil
Rights Act of 1964 and the 14th Amendment of the U.S. Constitution.
They have undermined the integrity of our legal system and violated
my human right, due process and equal justice under the rules of law
and did not take all admissible and undisputed evidence, which are
beyond a reasonable doubt into a consideration. The evidence
are my proof to the both courts and these are the facts of my case, and
justices Schroeder, Hawkins and Lee did not mention these facts in
their opinion in docket number: 61 on November 3, 2020.
And, The U.S. District Court's judge has denied my civil lawsuit without
allowing my due process and equal justice process under the above federal
rules of law and also violated the 5th and 7th Amendment of the U.S.
Constitution, Local Civil Rule(38, 39), Local Civil Rule 1(d) non­
discrimination. The staff at U.S. District Court attempted to hide some
evidence from my case and I filed my complaint with the court's

-6-

supervisor and Mr. Brian T. Moran, U.S. Attorney and I did not hear from
either one of them(see Appendix A). I received the retaliation and
discrimination from the U.S. District Court's staff and judges as a result of
appellees or respondents have communicated with this court's staff. It is
illegal for the court's staff to hide some evidence from my case. And, the
U.S. District has no legal justification or good cause reason to reassign
my case to the honorable judge Ronald B. Leighton from the honorable
judge Theresa L. Fricke. And, the U.S. District Court did not notify me of
this change.

CONSTITUTIONAL PROVISIONS AND LEGAL
PRINCIPLES INVOLVED

The Due Process Clause of the Fourteenth Amendment to the Constitution
is my guaranteed to the fair due process and equal justice under the 14th
Amendment of the U.S. Constitution. It is confirmed that no “State
[shall] deprive any person of life, liberty, or property, without due process
of law.” The Due Process Clause of the Seventh Amendment to the
Constitution also provides "a guaranteed for a jury demand trial" for my
civil case with U.S. District of Western Washington, which this lower
court violated my due process and equal justice because there is no court
hearing allowed with the U.S. District Court. In the three cases above, the
U.S. Supreme Court confirmed that "The Civil Rights Act of 1964 (Pub.L.

-7-

88-352, 78 Stat. 241, enacted July 2, 1964) is a landmark civil rights and
labor law in the United States that outlaws discrimination based on race,
color, religion, sex, national origin, and later sexual orientation. It
prohibits unequal application of voter registration requirements, racial
segregation in schools and public accommodations, and employment
discrimination."
And: The above federal law protects my due process and equal justice.
The justice Schroeder, Hawkins and Lee have violated my Due Process
and Equal Justice process and the Equal Protection Clause under
the Fourteenth Amendment of the U.S. Constitution and whether they
have violated the ADA, ADAA2008, Title VII of Civil Rights Act of 1964
when they changed their mind on December 1, 2020, November 3,
2020(Dkt#61) after they already granted my several optional replies and
my motions for reconsideration on August 7, 2020(Dkt#55), in case 1936059 in Appendix A and whether they have discriminated against me
because of who I am and where I came from and based on my race,
national origin, disability, sexual orientation. I have submitted many
pleading motions and motions for reconsideration and many evidences and
these are in the electronic case files with the U.S. District Court of
Western Washington and the U.S. Court of Appeals for the Ninth Circuit.
Many evidence in this case 3:19-cv-05171-RBL (Docket numbers: 1
through 161; and in this case 19-35801(Docket numbers: 1 through 18;

-8-

in this current case 19-36059(Docket numbers: 1 through 64) with the
U.S. Court of Appeals for the Ninth Circuit. When justice Schroeder,
Hawkins and Lee made their decision to deny my whole case on
November 3, 2020(Dkt#61), none of the above motions and motions for
reconsideration and evidence have been taken into a consideration for their
decision. On November 9, 2020(Docket number#62), I replied to the court
by filing my motion for a rehearing en banc hearing by the panel of 11
judges and the court responded from the Clerk's Supervisor Stephanie
stating that the court will not having a look at my request (email response
from her on December 1, 2020). By doing so, they have violated the above
federal rules of law. They did not even look at all evidence that I've
submitted to the Ninth Circuit court (See evidence in Appendix A). These
are only a few of the evidence and there are many more in the electronic
case files with the Ninth Circuit and the U.S. District Court. The Ninth
Circuit's judges should not discriminate against me because of
who I am and where I came from. I'm a good U.S. citizen and employee.
And. I am entitled to my fair Due Process and Equal Justice process
under the 14th Amendment of the U.S. Constitution and the
Title VII under the Civil Rights Act of 1964 (See evidence in
attached case summary of case no. 19-36059). The Ninth Circuit's judges
should not allow an affirmance of the U.S. District Court's ruling in favor
with all respondents after I have submitted many admissible evidence
which are beyond a reasonable doubt(See Appendix A and B) and

-9-

without allowing my due process and equal justice process under the
above federal rules of law.
They have also violated my due process and equal justice process
under the 14th Amend, of the U.S. Constitution when they ignored
and failed to address the federal Equal Employment Opportunity
Commission(EEOC) employment law, ADA, ADAA2008, Civil Rights
Act of 1964, FMLA, HIPPAA that respondents have violated.
The attached Notice of Rights-To-Sue from date stamp December
12, 2018 for the 2015&2016 combined EEOC charge from
Roderick Ustanik(See Appendix A&B to the petition) and from date stamp
March 1, 2019 for the 2018 EEOC charge from Kristine Jensen Nube
(See page 8, F to the petition), Charge for Discrimination from the June
15, 2018 and April 16, 2015 from Nancy Sienko(See Appendix A, to the
petition), and my civil lawsuit filing on March 6, 2019 with U.S. District
Court of Western District of Washington(See electronic case file with
case no. 3:19-cv-05171-RBL(justice Ronald B. Leighton) and my
amended complaint of 42 pages (docket number 7, filed date entry April
18, 2019 are my evidence that there is no time-barred. I do not understand
why the Ninth Circuit's judges have an idea that there is a time-barred for
my civil lawsuit in the case summary. And. They have used their abuse of
power to discriminate and to deny my whole case on November 3, 2020.
Their wrongful act has violated the above federal rules of law in my case.
The question needs to be addressed and seek an answer is this:

-10-

why did they change their mind on November 3, 2,020? My
answer to this question is because they refused to allow my fair due
process and equal justice under the Title VII of the Civil Rights Act of
1964 and the Fourteenth Amendment of the U.S. Constitution. And. That
is also a reason why they did not take a look at my case history and take
all evidence into a consideration for their decision on November 3, 2020.
Many evidence in the electronic case files with this current case no.
19-36059, and case no. 19-35801 with the Ninth Circuit and case no.
3:19-cv-05171 -RBL with the U.S. District Court and they have ignored
all of the above evidence. It is wrong and unethical and illegal decision
when they have discriminated against me and ruled in favor with all
respondents without allowing my fair due process and equal justice
process.
They have violated my due process and equal justice
process under the 14th Amendment of the U.S. Constitution when they
ignored the fact that U.S. District Court hided some evidences from my
case and has violated my Seventh Amendment of the U.S. Constitution for
my legal right to ask for a jury demand trial for my civil lawsuit.
The District Court’s Ruling in favor of all respondents without
allowing my due process and equal justice process under the Title VII
of the Civil Rights Act of 1964 and under the Fourteenth Amendment
of the U.S. Constitution. The U.S. District Court refused to allow a
hearing for my civil lawsuit although I have requested for the jury demand

-11-

trial (See evidence in these docket numbers: 1, 1-1, 3-1, 7 in the electronic
case file with the U.S. District Court in case no. 3:19-05171 -RBL). The
U.S. District Court has violated my Fifth and Seventh Amendments of the
U.S. Constitution and the LCR 38 and LCR 1(d) by denying an
appointment of counsel under Title VII of the Civil Rights Act of 1964
and attempted to hide some evidence from my case(See evidence in
docket number: 61-1, 100 and 101-1 with the U.S. District Court). The
Local Civil Rule(LCR)38, right for a jury demand trial, and Local Civil
Rule 1(d), prohibit discrimination and the Title VII of the Civil Rights Act
of 1964 are my legal right protection and these federal rules support my
position or claim. This is the 4th time I have received bully, retaliation
and discrimination by my same employer(DSHS), including the sexual
harassment by my former social services supervisor in 2006.

§These above case summary of docket numbers constitute part of
the opinion of the court or court's order. It has been prepared by court staff
of the Ninth Circuit court and U.S. District Court of Western District
Washington for the convenience of the reader.

STATEMENT OF THE CASE AND FACTUAL BACKGROUND
My civil lawsuit case involves the Title VII under Civil Rights
Act of 1964.1 filed my civil lawsuit on March 6, 2019 and amended
complaint on April 18, 2019(Docket number 7,43 pages with the U.S.
District Court, in case no. 3:19-cv-05171-RBL) after I received the two
Notices of Right-To-Sue from the EEOC staff members (Roderick

-12-

Ustanik, EEOC Enforcement Officer and Kristine Jensen Nube, EEOC
Program Manager. This lawsuit involves the bully, retaliation and
discrimination by the Washington State Department of Social&Health
Services(DSHS), Washington State Etealth Care Authority(HCA),
Washington State Human Rights Commission(WSHRC), Washington
State Attorney's General Office(AGO)-Torts Division, Equal Employment
Opportunity Commission(EEOC), and AFSCME Union and their
employees or respondents. These respondents decided to discriminate
against me and decided to assist my x-DSHS employee whom my 2
supervisors and 2 senior DSHS consultants and I had fired after our
several telephone conference calls and one face-to-face meeting at DSHS
in June 2013. The DSHS (new management team members) and
HCA employers betrayed me and set me up to fail and decided to
get rid of me by bullying, retaliating, and discriminating and creating a
hostile working environment and abused me to the point where I have had
my mental health breaking down or mentally tortured by some
respondents.
I reported about the bully, retaliation, and discrimination to
many respondents and they ignored my serious personnel issue that I
raised with them and did not make the bully, retaliation and
discrimination stop (evidence in Docket numbers: 1, 1 -1, 3-1, 7, 31 -1,
61-1,100, 101-1 with the U.S. District Court) and evidence in
docket numbers: 1 through 64 with the current case no. 19-36059 and 1

-13-

through 18 with the previous case no.19-35801 with the Ninth Circuit.
These are electronic case records. (See evidence by Dr. Jill C. Kinney
and Dr.Thinh Xuan Ho in the electronic case file with the Ninth Circuit,
9-36059, and in case no. 3:19-cv-05171-RBL with U.S. District Court.
The mental health and emotional tortured until I couldn't function at
work to the point where I had to walk away and quit in May 2015
and after I had exhausted all of my sick leave balance in June 2015.
The respondents had bad motive and their wrongful act is an effort
to get rid of me because I complained about their bully, retaliation
and job discrimination in the workplace, such as my filing Tort's
claim and the EEOC complaint and engage in EEOC
investigative process. On April 13&16, 2015,1 filed my
EEOC complaint(See attached copy of EEOC charge for 2015 and
2016 combined by Ms. Nancy Sienko, EEOC Executive Director in
the Appendix B).
The EEOC's result of investigation showed no reasonable cause
and no discrimination (See attached copy of Notice of Rights-To-Sue
from December 12, 2018 and copy of Charge for Discrimination
for 2015&2016 combined in Appendix A). It turned out that
the WSHRC and EEOC and its employees or respondents have chosen
to assist my x-DSHS employee, and I received the bully, retaliation and
discrimination by EEOC and its employees or respondents(See
evidence in Dkt#33,264 pages, dateentry: February 2, 2020 for

-14-

N27-3 emergency reliefs request; Dkt#35, 127 pages; Dkt#57 pages
with the Ninth Circuit). EEOC hided 66 pages of my evidence on July
29,2015 and I had to provide another copy to EEOC on September 16,
2015. On February 26,2019,1 returned to EEOC office in Seattle, WA
for help and staff at reception refused to assist me and turned me away.
In 2018,1 attempted to return to work for DSHS employer again
knowing that I have had excellent work histories with DSHS from August
9, 1991 to June 30, 2013 prior to my employment with HCA employer
effective July 1, 2013. However, all of my submitted 31 job applications
showed either reject or not qualified after my nearly 25 years of my
employment with the State of Washington from August 9, 1991 to June
25, 2015. I contacted Ms. Margaret Maddox, Acting DSHS Human
Resources Director and she suggested to me that I need to file an EEOC
complaint

with

the

Washington

Commission(WSHRC), which I did.

State

Human

Rights

However, WSHRC and its

respondents refused to help me. It turned out that WSHRC and its
respondents already assisted my x-employee and decided to discriminate
against me. I was not rehired by my former DSHS employer in 2018.1
received the employment discrimination by my DSHS employer, which is
a Civil Rights violation under these rules of EEOC law, ADA,
ADAA2008 and Civil Rights Act of 1964. By refusing to assist me with
my EEOC complaints, WSHRC and EEOC have discriminated against me
and they have violated the above federal rules of law. This is against the

-15-

?.%aq

;e©gsc| tET ,<t£*J3R3 jfesupw £oilm xam>%v>m»i-T$M ;
/

■

yM no aonabi/© V'ti'io asgnq dr) bvbirl 'J03H .(litioiiO diniW vdi iftiw
.dl vxirnviqo2 no '30T-J o\ vqoo lodtorm sbivmq oj bsri I tot; £ f 0£ .?£
A

AW ,$Ujb©?, ni ©aiRo "5033 ol femmsrs f ,QLOS,„d£ywicJa? nO-.£lO£
.yawfi'sm bamyi bos am imen^ol haaiih'i ooi)q©9©i in rteig bxin q^rf iol
.

-

,

■■

.

\

-

■

;

■

A

mugs Toyolqjrrta 2H2tI ioi iiow oi rnuiai ol balqmy»f> f .8 FOE ni
iZMgiiA mot} 2M&0 rfti// «am>}?.ui 3how JitaFiaaza bsrt ©verf I Jsrfl gniwom!
r

*

■

■

.

layoiqmo A’JH rlTt/7 taarnyolqrns yrn oj lobq £ 1Ot ,0£ ©flu! 0) IbPI 3?
gnorifioiiqqi: doj U b'Jllimdpg ym*)o Llfi ,t©/3WoH .U0£ .f yiul/ibj-jvfb
•

.

‘

'

.

v

'

1 •

Xm id en&x ?£ xhsati wft 73&5 hailifeop ion la Jo©^’ Barliia beworla
A
.
oiml ol IQQi ,9 IguguA rnofi nuigcmtefiWto sl/ilB sdi ritiw jfremvoiqOTO
nnrnnH 2H2G gniiaA .zobLa’/ j'JtsgifjM AM bsioBinoa J
(■

IOS .c£

„

'303d or dbl ot f»t.n l torft ©m .o) batesggttg ©da bno iowtKI ?
,

- ■ gjdgiH
?

munid-I

3)02

ajt bnc O^HHW ymawoB
h

noraqiMgnW

orfi

riiiw

Jnislqrnoa

A,

.bfb I rfoirfv/ e{OHH2V/)flargeimajQO
1

'

gif bac 0$H2W isrb luo bamui il .srrt qb.i oikM/tat AtobnoqsOT
©innlmhaaib ol b^bbab bne osyofqma-x {01 irateiaac ybBsnffi amatoo<^9r
y

i .8 f OE in layoiqms 2H2G laortd} '{ffl

bsiiftei ion air/* I .om fecrtegB

gr rbidw ,i3'<ofqrn3 2I-I2G ym yd notJehimhogib insm yofqm3 ©di b»r4iosa..
.AGA .v/fil OOHH 7o gabri sgarli isbnb ftoiiiiloiv aiiigiH imO e : ,
dJiw sot igfggs oi ynigid'-ri y8 .$$91 'to ioA. ,'idyiH H /iO brss 800E.A/vGA
am Janitgc bomnitffhQitb ©yot 003H brm OMtlZ'tf ,'ctnmlqmoo 1033 ym
aril Minion gi gtriT .//nf to aoim tesbst avode sdi teinior/ svnri vyib bnn

- dt -

Gov. Jay Inslee's Executive Order 13-02 in 2008, which his mandate to
hiring a person with disability as required by the Diversity Program and
Inclusion Program for the State of Washington (See attached copy of
Notice of Rights-To-Sue date March 1, 2019 from EEOC and copy of
Charge for Discrimination for 2018 by Nancy Sienko, EEOC Executive
Director for 2018). WSHRC and EEOC agencies and their employees or
/

respondents also chose to discriminate against me and they didn't allow
my due process and equal justice under the Title VII of the Civil Rights
Act of 1964.1 filed my Torts' claim with the Washington State's Attorney
General Office and I received the bully, retaliation and discrimination by
this agency and its respondents(See evidence in Dkt#33,264 pages,
dateentry: February 2,2020 for N27-3 emergency reliefs request; Dkt#35,
127 pages; Dkt#57 pages with the Ninth Circuit). I also asked the
AFSCME Union and its respondents, but they refused to help and I also
received the discrimination by the union and its employees or respondents
as well because this union and its employee or respondent already
represented my x-DSHS employee and that is why they refused to help
me. Then, I asked many attorneys to help but they all declined to assist me
with my civil lawsuit case (See evidence in Docket number: 111 with the
U.S. District court). After I have exhausted all of my resource, I have no
other choice but to file a civil lawsuit on March 6, 2019 with the U.S.
District Court at Tacoma, WA. And, I filed my Amended
complaint(Dkt#7J, date entry: April 18,2019,43 pages), adding the

-16-

oj *j3ftj.'fituj i-iri dobt#,80Q£ ni SO-Cf'rabiO 3'/tju?ar.3' j'svfeni VidL .yoD
'■

bnc m'P'jpiH (Jwtj/iO sHf yd bovuf&i as

\

lo fqm o^rfoaJtR ■ ojti) iiQJsoirknV/ 'to an#? srh tc& -'frmgotf imUufrrd

r

dfiv/ fjoaraq n gakiri

to vcjod btrs 003.3 tpmi QIG1 3 ihmtd 3Bb swS-oT-iOdgtS ‘to aoJroVf.
•svfctraax-i 003:1 to:?noi^ */9r«iV! yd SfOKupt rniitBoistimdO idt wjvid)
■30 gsoyoiqmo trafto bflb Bbbnsjgu OOHrl brm 0.3H2W .($iQ£ iiw iblooiiG
vjfoilb Anbib <3dl bnB om tzamgs pisnimho^b <it bzoria ozIb sj/isfbflocjesi
tfrigifl IrKO aril 3o HV sbiT arlt labwi aafoauj. ieups bne sayw/iqiiijb ym
v9£poi3A (jOiBig qotgnjfNW 'Mr rfotw mir,b ‘droT rat IwilH .M^rto^aA

^ .

yd uohiiniriimaib bna noitBfbltrr ,/tfud orb bs-myyi l brie safflO ImfraD
VtOgfiq bolxE^ttKI ot 30fl9bi /3 Sy2)i>J»3bflOqZSrt ?tf bOU 73ft0g« •
xOOviCi ;3r>9i!pviO's jilvt '/anagram? c-tT/ idi 0£ft£ .£ ctfiirroai;yt•.:1>
sdi tfrAzi; oata T dlhraiO

aril 3)0/ ?*jgcq T2&&JG :<&gm Y£f

ogic 1 bflc qbd qI baai/tei vabt tad .gfrrabnoqasi ?3i aos nui/iO 3M083A
(SmBbaoq^snt id zs^Qlqara di boa itoinn Sfb vd coileiwrnraaih aril tevraoai'
(toils JtlojHioqayi 10 ssYblqffh di brtfi- noiffu ?irfi ggi/ppod Tfw/ an.
*

•

■>-

'••.„■

•

qfod cd iraeriiai jorfJ vri^/ ?,t tsd3 bits 3S {o!qflra 2H2G-X ym baJrraemqoi
om P\m; o) bambub ibi />dl lari qbrt of a^smofis vnsrrt irair-e i .liydT .yin
f

,

-

■

..

;

■

oill ihUt f 11 rtadmon ladooG nl yarrabivo 338) 5»o litrawni Itvb ym rbiy/
on o/sd {'dbiuo&tt Mfnio Op teteu&rixd averi I raflA 431003 raiikiG .24J
*

.2. if orii fbnv 0!O£ „d
Iivi-j a; ylft ot lod oyiorio radio
" fbifitA no lio^wol
.
bybndmA mi bolll I, ,bnA

.AV/

jifboorT tn nuoO JornatCl-

orb ijorbbfj ,{g3gaq bb ,G f 0£ ,81 InqA :/'uno 33ob

* 91 -

io’qrnoo

0.

AFSCME Union and its employees or respondents to my civil lawsuit.
In a case of Bostock v. Clayton County, on June 15,2020, the
U.S. Supreme Court judges (6 to 3 ruling), "The Court held that Title
VII of the Civil Rights Act of 1964 forbids employment discrimination
based on sexual orientation and gender identity." And. "This ruling clearly
states that sexual orientation and gender identity discrimination are sex
discrimination for the purpose of the Act, and are therefore illegal under
federal law."

§1 Record citations are to the record filed in the U.S.Supreme
Court justice rulings on June 15, 2020, Bostock v. Clayton County(42
U.S.C. 2000e-14§ 40.1-33.1)
REASONS FOR GRANTING THE WRIT
1. If the Ninth Circuit and the above three judges carefully reviewed
my whole case and take all facts and evidence into a consideration(case
no: 3:19-cv-05171-RBL(docketnumbers: 1 through 160); case no.
19-35801 (Docket numbers:! through 18) and case no. 19-36059
(docket numbers: 1 through 64) when they made their decision on
November 3,2020(Dkt#61), they would have made an ethical and legal
decision for my case. Instead of helping me, they decided to discriminate
against me and ruled in favor of all respondents without allowing me
my due process and equal justice under the Fourteenth Amendment of
the U.S. Constitution.

-17-

!-

V
• t

.twawBl !ivij/rn oi ?m&fancv<|?/ji 10 aaavolqmo aii bns noin’J JIM'Dg'lA
orfj (0£01.?f

no .{tnml ooi<&D .y iboteoSlo oaso c nl

oS^tl r.rif bfoil niioI> aril,! ,(^fu!m £ oJ d) a^§liff|.«jjo0 SirpyTquS
r?oi)Bfirfnno?,ib loam (olqma Aithol WVI do loA «jrigt/d {i ri‘3 arU lo UV
gsiloT aMT" JanA ’’.^ttagbf 7:?bii3g bos nopchsmo laoxse wtewd
xo&'vna mAcmrahoaib <jtf«9bi iobft3g bxiij riafuaii&ho iuux&e jrdi spieia
isbftjsi tegsHi sibisioriJ tne wm jpA ’jifsJo aacKpiiq orb iol adifairimhaaib
tr

.v/sl IsxaLjt

fi

onmujj?.t?,.U art) nrbaift bioosi aril oJ stb ?coiln)b biftoaH i?
£b)xtntioD not/ui’)' v 'fonszafl »0£Q£ .cl srtift no agnitm aalJgot tutoO
n.£E-i,o**$M-voo<H; d.zm

t'mw

mr iy/imAm mi zmzAM

bav/ar/vi .$hi1 t/teo e&gbu[ sairb svod} sriJ baa JiaduO AniM adt'fl J
s?jjo}aofrjrfsbian03 s oinl' sonabrva hue

fie ato has

alodw %m

-.or? oshJ ;{Odf riguo’tjb 1 .mdrnna ]a>bob) I85’{-! ? t dG-va-P i :£ :on
QcOdi-Q! -oft asBO bos (81 rfgiioiri) {:2rjdrfifjn |a;(Dod}lO82C-01
■

t

no aoiz'taob ihriJ stem '<3rti naifor (£d rigooiftJ f ynadauifi Jaiaob)
kgs! fens Ubiffta ns obsm aVari bioow ^oA >< 1 d&MCQOfOS. ,t ladmavoK
aJsmmirjaib ol baobab yoA .srn gmqfatrio bss&nl .aasa
i

iol nobbab .

.

sargni^ofiBlworib/f akaforioqifai ISeIoiqvsTA k>lin bosom ten Ago
\

lo JnsmbxrainA Anaaf-ojod aA labmf aoiteAiGfjpa bna j-gaamqfajjb
.fiuiloiifenob ,?J1 oA

i

u

2. If the Ninth Circuit and the above judges didn't discriminate against me
and allow my due process and equal justice under the Title VII of the Civil
Rights Act of 1964, I would win my case. And. The Ninth Circuit's
judges failed to protect me under the 14th Amendment of the U.S.
Constitution.
3. If the Ninth Circuit didn't ignore these submitted additional evidence:
2 Notices of Rights-To-Sue and copy of Charge for Discrimination by
Ms. Nancy Sienko, EEOC Executive Director, for 2018 and 2015, they
would have been making the right decision and ethical decision according
to the above rules of law for my case.
4. Because I am a disabled person, I have met the EEOC law, ADA,
ADAA2008, Civil Rights Act of 1964, FMLA and HIPAA reasonable
cause and the law, I am being protected by these federal rules of law
and the 14th Amendment of the U.S. Constitution(See Dickerson v.
United States, 530 US 428,434,120 S Ct .2326,147 L Ed 2d 405 (2000)
(citing Malloy v. Hogan, 378 US 1,6—11, 84 S Ct 1489,12 L Ed
2d 653 (1964)). The U.S. Supreme Court judges are agreed with the
Title VII of the Civil Rights Act of 1964 for the 3 individual employees
and that is why they "p.4And we granted certiorari in these matters
to resolve at last the disagreement among the courts of appeals over
the scope of Title VII’s protections for homosexual and transgender
persons. 587 U. S.__ (2019)."
5. The bully, retaliation and discrimination has happened to me the

-18-

tiiTl

tfmege sisaimhuPUi f'nbrb s-vgb«{^ #o<Jb

fens Jino'iD fftoF/I arltdl £

!t *iO -Jill to If'/ ojtiT of{| lobnu aohsm fiutpa one asoooiq oub vrn woHs Lne
tiamil rfiiiiVI mft .hnh &&& -<rtt niw bluow I ,W( 'fo toA BJrtgifl
AAd arir to tuWihc&mA diAf orb pbnu ant mtmq pi bailed aagbiq
.aoijmlPMo')
utoaabiVu fenfcWbbfi bottirndut; aaotfl diongi fnbib JibotiO rimiM odtlj X
vd ftcijsnimruwfQ v8 vjuirtO to \{qoo btra ^u^-oT^id^l'lo aaoitoVT £
vadJ./ xf 01 fans $J0£ wS (toiamiQ s/ittmtdl• 0033 .oimlB pmA ,elvt

{*

gmbtooafi mizmb lastfiffc hne nobmb i%h aril grtbbm waad ored bfuow
A
.aaea xm toi v/eRo’ealiri avode'odt oJ
.AOA,Aral OQ33 adJ ism s/sri I ,tio?}3tj boldegrb o me 1 astfflosfj -A ,
a!<js5vio>aii A/c!11i btie AJfAf .AdOMo loA <?ldgi» I s 'l O ,800£AA(iA
vral 'io fcaltn Imobvl s-^rtf «!' bataatoiq gctbd me i .vral aid brut a«eaa
. / no«nv/hlCT ‘.Dbtnoui'iU'snaO.d. J sdj'io marnbuomA rilA? odl Lne
(00P£)'e6b b£ b3 J XM MtL O 8 0£t ,A€A *8£A 2U 0££ -HOletH botbrlJ
63 ill ,<?m JO ’A A8 ,ft~d .i 2T>8Y£ .negoH .v /olbsM gmtb)
adj rfjtw bwtge me Xagbnt ttuoO oftmqijS .&,U aril .((Ad/ f) Ced b£
Fssvulqmo icubi/ibni £ aril idt Ad/1 do to A. gtdgtil iivO sdllo UV abi'f
•

-\

giattem ssadt fii nmoitto-j baiaciy sw brrAA.q'1 vmt nyr si led* hn$
'lovo desqqelosjiijoo sdi gnome JaaitmigBsib sdi tset te v/losSt ot
lobiuganirM bne ki/xagornod id! snorloatoiq a* i)V altiTio aqooa-orfi
,!.(/fO£> ___

.11 V85 -gnoeioq

adi a,7i ot bonoqqed sed notJerrimnoaib bne ttohc-HuJsrr /(Ifud atft/.S

- 81 -

’

4th time by my same employer and it could happen to anyone else
or any employee, and the Supreme Court can help make it stop.
My reporting a Civil Rights Act of 1964 violation helps make the
workplace a safe environment for everyone.
6. Because of who I am and where I came from and I'm a good
U.S. citizen, I am entitled to my fair Due Process and Equal Justice
process under the 14th Amendment of the U.S. Constitution and the
Title VII under the Civil Rights Act of 1964 (See evidence in
attached case summary of case no. 19-36059 and Appendix A)
and the justice Schroeder, Hawkins and Lee didn't allow this to happen
and they decided to discriminate against me and denied the already
granted AMENDED CROSS-APPEAL by the Ninth Circuit court
and the honorable judge Canby and Gould on March 4,2020(docket
number 22). Their wrongful action has violated my due process and
equal justice process under the 14th Amendment of the U.S. Constitution
and the Title VII under the Civil Rights Act of 1964.
7. This is the 4th time I have received bully, retaliation
and discrimination by my same employer(DSHS), including the sexual
harassment by my former social services supervisor in 2006. Because
of my two previous employers(DSHS and HCA) bad motive and
intention, malicious behavior, and they set me up to fail miserably,
betrayed me and destroyed my good life and good health and I did
not have a chance to become a successful employee at HCA and no

-19-

f

\ . '

aab unoYtii. oi fteqqcd bboD Jr bnii Tsvolqm^ aatijg

'tf smiirflb

\

jtjxfte n »^B»t qferf nsa Jwop samquZ 3lfc bos ,33{okimo vne to
\

V ,

t>di sieiir «qhd noiteioiv

To ioA atdgiH IbD c gfrthoqaa <(M

.onu’/tovo lo'UiismrtQi! /us ofe a ooabphow .
boog 8 mT bc*B cnotl smite l mod# baa me 1 <>dw To 32ire»S. \d

N

30ite0vftaip.H'bq'B gaaocn*? soCI ml *<trf oi bafiiino mu I Jtesiifo -<d»Li
V

*

.

.

odi bfl8 nomriiienoO .E.U oriilo fnambmntA .lib I adl mbmi axnmq
.

*■:

,ntosnabl/v joK) bd<?f To loA. aidgiil iivil arii laboo UVbJiiT
(A xlbnaqqAfcnfi ^0d£-9l ,on aabo To '{TOmmita saite bsriofiiis

V

ooqqsd ot gitfl -wofte i'rtbrb ayJ bne anblwsfi ti5bocnfi32 33iJ8u[t>ril bw
vbr/jila at!} bsinob bris an: ianiegB aJsmmhpatb oi babioab vaiil Lob
j-uiob ftmiiO ttoalK oit) /d JA-MdA-dHQiO GHCIViTMA botninu
jyioohlO£G~ A do'iGf/ no biuoO baa /dmO agbuf, aidmonori vfli him
km nzoootq sub' tm botetoiv asrf naitea bilgnor^ ibiil' .(/£ ladxriuo
Hobwiiiato^ .ZXt sdl To InambiwnA tffW
f

l

■■

.

'

'

tbbwi srteotq soltzoi, bops,
■

:

f To ioA aJriijxS Hvp bill isbrnj liV ofiiT udJ brut
.i

aohsiteisi //Bod bo/boat svori I omii rbb yrfi fet TtdT .V
Jbwxos aril ^rtibufoni

rE)’Co^»» »a«sa Xff* ’{d nbbpmmroalb boo

J

l

'. aawooB* .d00£ni qoairioqoa eaoirwa feiaqa iwndt (in vd momkatsd
•»

i

ban svtioip bed (A3H bfiit 8H?;G}siyYoJqraa auoi /gtq oAl'{rn'to
j

‘^Idmsaim licit oi qu am tea vorfi boa .loivarfad aoobBefn moiteami
bib I bne dilostf boog bps »TH boog \m bs'/odteb boa am bo (fitted
on brio ADH is 33'{olqms io'igaoooua ft amoosd oi osmub e .//ad loo

Gi •

employer, especially DSHS employer, rehired me in 2018,1 need
my justice and the relief for all the damages that all appellees or
defendants have caused to my life (they destroyed my good health,
professional career of nearly 25 years, and good reputation in
many communities; and because of their wrongful act, I live in fear
for my life on the daily basis and I have been physically and emotional
pain and suffering on the daily basis. I often have nightmares,
depression, anxiety and many sleepless nights and poor health). One of
appellees had communicated with my health care providers, I woke
up with a machine still stuck inside of me and the doctor who performed
my colonoscopy procedure in March 2014 had poked me and damaged
my intestinal organs. As a result of that, I have problem with my
digestive system and poor health nowadays.

CONCLUSION
Therefore, I respectfully request that the U.S. Supreme Court's judges
of the United States grant my petition for writ of certiorari.
Respectfully Submitted,

January 5,2021
Kannha Bounchanh
Petitioner, Prose Litigant

-20-

